<html>
<title> - FROM THE WRIGHT BROTHERS TO THE RIGHT SOLUTIONS: CURBING SOARING AVIATION EMISSIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]




   FROM THE WRIGHT BROTHERS TO THE RIGHT SOLUTIONS: CURBING SOARING 
                           AVIATION EMISSIONS

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 2, 2008

                               __________

                           Serial No. 110-31




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
61-640                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                   Gerard J. Waldron, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director










                            C O N T E N T S

                              ----------                              

                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared Statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................     6
Hon. John Larson, a Representative in Congress from the State of 
  Connecticut, opening statement.................................     6
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri, opening statement...........................     7
    Prepared Statement...........................................     8
Hon. John Hall, a Representative in Congress from the State of 
  New York, opening statement....................................     9
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................     9
Hon. Earl Blumenauer, a Representative in Congress from the State 
  of Oregon, prepared statement..................................    11
Hon. Hilda Solis, a Representative in Congress from the State of 
  California, prepared statement.................................    12

                               Witnesses

Panel One
    Dan Elwell, Assistant Administrator for Aviation Policy, 
      Planning, and Environment, U.S. Federal Aviation 
      Administration.............................................    14
        Prepared Statement.......................................    16
        Answers to Submitted Questions...........................   101
    Bob Meyers, Principal Deputy Assistant Administrator for the 
      Office of Air and Radiation, U.S. Environmental Protection 
      Agency.....................................................    29
        Prepared Statement.......................................    31
Panel Two
    Jim May, President and CEO, Air Transport Association........    54
        Prepared Statement.......................................    57
    Tom Windmuller, Senior Vice President, International Air 
      Transport Association......................................    71
        Prepared Statement.......................................    73
        Answers to Submitted Questions...........................   111
    Deron Lovaas, Transportation and Energy Co-Director, Natural 
      Resources Defense Council..................................    80
        Prepared Statement.......................................    83
        Answers to Submitted Questions...........................   124

                          Submitted Materials

Hon. Edward J. Markey, supplemental testimony submitted by Virgin 
  Atlantic Airlines..............................................    46
Hon. Edward J. Markey, supplemental testimony submitted by The 
  Boeing Company.................................................    51

 
   FROM THE WRIGHT BROTHERS TO THE RIGHT SOLUTIONS: CURBING SOARING 
                           AVIATION EMISSIONS

                                 --------


                        WEDNESDAY, APRIL 2, 2008

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:50 p.m. in room 
2318, Rayburn House Office Building, Hon. Edward J. Markey 
(chairman of the committee) presiding.
    Present: Representatives Markey, Blumenauer, Inslee, 
Larson, Solis, Herseth Sandlin, Cleaver, Hall, McNerney, 
Sensenbrenner, Walden, and Sullivan.
    Staff present: Ana Unruh Cohen and Danielle Baussan.
    The Chairman. This second hearing today is called to order. 
The select committee analyzes all causes of global warming. It 
can't let aviation fly under the radar. Aviation emissions 
currently amount for 12 percent of U.S. transportation 
emissions and 3 percent of emissions nationally and worldwide. 
The impact of these emissions cannot be ignored. The 
CO<INF>2</INF>, nitrous oxide and particulate matter leaked 
into high altitudes alter our climate. Scientific debate does 
not center on whether CO<INF>2</INF> in the stratosphere is 
harmful. The question is how much more harmful CO<INF>2</INF> 
may be when compounded by other aviation emissions in the 
stratosphere.
    The aviation industry has improved emission output through 
technology, but the rapidly increasing number of flights will 
exacerbate aviation emissions. The FAA has forecasted over a 
billion commercial passengers annually by 2015, and the 
intergovernmental panel on climate change has predicted that 
even assuming efficiency and infrastructure improvements, 
aviation emissions could double or triple by 2050. Aviation 
must answer for the heat trappings of their own success.
    Today's hearing on aviation emissions should not be viewed 
as a mere blip on the screen. States, cities and organizations 
have petitioned the EPA to regulate aviation greenhouse gas 
emissions. Aviation fuels are currently being considered under 
a cap-and-trade system in Congress. The European Commission 
plans to integrate domestic and U.S. flights into the EU 
trading system. As local governments and other nations move to 
limit the impact of aviation on the environment, Congress 
cannot linger in a holding pattern. The witnesses before us 
today address the three factors responsible for aviation 
emissions, operations technologies and fuel.
    Regulating fuel emissions largely falls to the 
Environmental Protection Agency. The Federal Aviation 
Administration can discuss its vision to streamline aviation 
operations for more efficient flights, and the Natural 
Resources Defense Counsel's transportation fuel director can 
discuss aviation fuel options and consequences. The Air 
Transport Association and International Air Transport 
Association can discuss different approaches to aviation cap-
and-trade regulations. Virgin Atlantic General Counsel Jill 
Brady was unable to attend today's hearing, but submitted 
written testimony discussing Virgin's groundbreaking commercial 
flight using biofuels and support for an international cap-and-
trade scheme.
    I encourage the public to read her testimony and all the 
other testimony. As aviation's contribution to global warming 
creeps up the IPCC charts, we cannot wait until it becomes a 
bigger threat. At one time, the number of automobiles on the 
road was not a significant contributor to global warming 
emissions. But even after that harm was established, decades of 
inattention and legislative delays led us to the environmental 
emergency that formed this select committee.
    With that in mind, I look forward to hearing everyone's 
testimony today. And now I turn to recognize the ranking member 
for an opening statement.
    [The prepared statement of Mr. Markey follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Sensenbrenner. Thank you, Mr. Chairman. I want to thank 
you for scheduling this hearing today. I look forward to 
learning more about this topic. One of my many curiosities 
about this topic, perhaps the most pressing is why the aviation 
industry is a major focus in the global warming debate. By all 
measures, aviation produces just a tiny fraction of the world's 
greenhouse gasses. In the U.S. aviation accounts for only 3 
percent of emissions compared to electricity generation, ground 
transport, industry and agriculture, all of which produce many 
times more greenhouse gasses. Furthermore, the aviation 
industry has been doing a good job of improving fuel efficiency 
because if they didn't do that, they would all be out of 
business with fuel prices being what they are. And it didn't 
take heavy-handed government regulations such as cap-and-trade 
to make it happen.
    In the past 4 years, U.S. airlines have improved fuel 
efficiency by 11 percent mostly due to the market driven 
pressures of the high price of oil and the lower value of the 
dollar. This is positive progress, and the industry deserves 
commendation for this improvement. In spite of these numbers, 
the European Union wants to include aviation in its emission 
trading scheme which would clearly throw additional costs onto 
the airline industry. I don't understand why government 
regulators want to punish an industry that is already making 
good progress without the pressure of regulation.
    Then again, I don't understand how hampering the economy 
with regulatory schemes like cap-and-trade is the proper way to 
confront climate change in the first place. Last month, an EU 
commissioner said that if the U.S. didn't join the EU emission 
trading scheme or apply a similar program to U.S. airlines by 
2010, EU would begin denying incoming flights in 2012. I wonder 
if this threat also applies to India and China, each of which 
has a growing airline industry to meet the demand of their 
growing economies. In fact, testimony today will show that 
these two countries will build 100 new airports over the next 
decade to meet the demand.
    And, no, India and China don't have emissions trading 
system of their own, and it doesn't look like they are going to 
get one soon. There may be advances in clean fuel technology 
that help reduce airlines greenhouse gas output even further. 
As I have said many times, technological advancement must be 
part of any plan to confront climate change. However, I do not 
believe that any advances in fuel technologies should come at 
the expense of safety. There are already some concerns that 
biofuels can cause engines to stall, which is a safety risk I 
believe is too great, especially considering the airlines' 
minimal contribution to greenhouse gas emissions.
    If large scale changes are needed in the aviation industry, 
the U.N.'s international civil aviation organization is the 
best place to address these questions. And it isn't often that 
I embrace a U.N. organization to do anything.
    However, in this case, the U.N. is taking more thoughtful 
approach to aviation emissions and technology than is the 
European Union.
    When it comes to global warming, many people cry that the 
sky is falling. But I worry if we make careless changes to the 
airline industry, it will be the planes falling from the sky. I 
believe it is more prudent at this point to recognize the good 
work that the airlines are doing before we force changes that 
could jeopardize both the safety and the economic health of the 
industry. I yield back the balance of my time.
    The Chairman. The gentleman's time is expired. The Chair 
recognizes the gentleman from Washington State, Mr. Inslee.
    Mr. Inslee. To respond to Mr. Sensenbrenner about why we 
are concerned about an industry that has only 3 percent, I just 
think we all have to get on the bus, everybody, whether we are 
3 percent or half a percent or a tenth of a percent, we all 
have to get on the bus. We are not going to solve this problem 
unless every industry participates. That includes Congress, 
that includes us in our homes and that includes the airline 
industry. So it hardly will be an excuse, and obviously I'm 
from Seattle, an aerospace industry, and you might think a 
hometown team would say ignore that industry, but you can't 
ignore any industry.
    So I have good news to report to the committee, and we are 
going to hear about it today. There are some bragging rights 
coming out of Seattle that to do my job of bragging about my 
home town team, let me brag about them a little bit. The first 
biofuels operated commercial jet airplane, the jet, was 
manufactured in Seattle, with Boeing 747 using standardized 
engines with no modifications whatsoever to the engines. It 
flew on February 24, 237 miles from London to Amsterdam safely, 
didn't fall out of the sky, no injuries reported and it was a 
smooth flight. And it used a fuel generated by Imperium 
Biofuels in Grace Harbor, Washington, used 3,175 gallons of 
biofuels. It was produced by Imperium. This was kind of an all 
Washington State project with help by Sir Richard Branson. And 
it just shows what the power of the human intellect can do in 
aerospace, and we look forward to more successes.
    I also want to point out in the aerospace industry, our 
ground operations are part of this as well. And there is really 
some good things we can do on the ground. Seattle-Tacoma 
International Airport has done some great things reducing its 
CO<INF>2</INF> emissions in its operations. They are using 25 
percent green power. They have reduced their electrical 
consumption 24 percent, and they are implementing a way to use 
preconditioned air so you don't have to use the airplane 
engines to condition the air in the airplanes while they are 
sitting on the tarmac. So we are developing some great systemic 
things in Seattle, and I look forward to hearing about more 
success.
    The Chairman. Mr. Larson.
    Mr. Larson. I want to thank the chairman and thank him for 
holding this hearing today. And I also bring with me some 
bragging rights from the aerospace industry and my home town is 
that of East Hartford, Connecticut, where my dad worked at 
Pratt Whitney for 37 years where we continue to keep the eagle 
flying as we say, from East Hartford and I'm proud as well and 
I think all the more reason to have hearings like this and to 
set standards and goals to see the kind of technological 
advances that, in fact, can be made that are going to help us 
all in our effort to limit the carbon footprint that we have 
and create greater efficiencies that will improve our travel, 
and of course, save overall dollars.
    Pratt Whitney announced the successful design of engines 
that were beyond Mitsubishi and with technology that reduces 
air emissions 40 percent below the 1996 regulations and saving 
taxpayers $600,000 each year due to lower operating and 
maintenance costs and improved productivity.
    It does, Mr. Chairman, beg the question, too, you know 
perhaps at a future date, we could have the Air Force in here 
and the Pentagon in terms of listening to their testimony 
inasmuch as they are the largest consumers of energy in the 
United States government system. And the Air Force obviously is 
the largest consumer of fuel in the country.
    And with that, I look forward to hearing from our testimony 
and thank the chairman for holding this insightful hearing.
    The Chairman. Thank you. I appreciate the gentleman from 
Connecticut. And now we turn and recognize the gentleman from 
Missouri, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman. I think Mr. Larson 
and Mr. Inslee pretty much covered what my comments are. I 
would only add, and then yield back the balance of my time. 
There are a lot of questions that have not been answered and I 
think that we have got to go through a period of examining what 
happens to the pollution at a higher altitude and whether there 
is a greater impact, even though we have 3 percent emissions. 
It could be that it creates problems of its own. We don't know, 
and so I think it is appropriate that we examine it. And I 
appreciate the hearing and our guests who have come here today. 
Thank you, Mr. Chairman, I yield back the balance of my time.
    [The prepared statement of Mr. Cleaver follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Larson [presiding]. Thank you, Mr. Cleaver. With that, 
I recognize the gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chair. And I also would like to 
welcome our witnesses and thank the chairman for holding this 
hearing today. And I reassure our ranking member that I, for 
one, do not, as a member of this committee, want to punish an 
industry that has already done a lot in their own interests and 
also in the environments interest by installing wing lifts or 
removing magazines which add to up to a surprising amount of 
weight. I don't think there has been too many customer 
complaints about magazines being removed from airlines, and any 
efforts that are being made, not only in the air but on the 
ground, as I understand, to reduce consumption of release of 
greenhouse gasses from ground equipment that is involved with 
loading airlines with baggage or food services or what have 
you.
    I'm proud to say that in my district, Stewart Airport, 
which has just been taken over by the Port Authority of New 
Jersey, is going to be, according to their announcement at 
their big press conference, they would like to be the first 
carbon negative airport, and compensate with solar and 
geothermal and passive features and so on and with using 
alternative fuels as much as possible on the ground for the 
emissions that they release in the air. That may be a big 
ticket, and I admire them for making such an ambitious 
announcement. And I wish them luck in meeting that goal and 
will do everything I can to try to help. But I just think I 
agree with, I guess it was Mr. Inslee said that we all have to 
try; I as an individual, we as Members of Congress and you as 
members of your company and your industry, in order to have a 
chance at reaching the goals that this committee is constituted 
to find a route to, those being energy independence and to stop 
the advance of climate change that we all must do our part.
    And I am appreciative of the fact that the industry we are 
hearing from today has already done a lot along those lines and 
looking forward to hearing what else you think can be done, and 
I yield back the balance of my time.
    Mr. Larson. I thank the gentleman from New York for his 
words and recognize the gentleman from California, Mr. 
McNerney.
    Mr. McNerney. Thank you, Mr. Chairman. I want to welcome 
the panel here for their testimony. And I look at all the 
issues, I look at this issue, I look at all the issues 
surrounding global warming as not only a threat but as an 
opportunity, in this case there is an opportunity to find ways 
to make the airline industry more efficient which will 
ultimately save money, there has been some very good 
recommendations out there that are worth pursuing, one by Mr. 
Lovins, Henry Lovins, to encourage the airline industry to tax 
considerations, to retire some of the older more inefficient 
planes with new ones.
    That certainly wouldn't hurt the State of Washington. And 
there is all kinds of things we can do to improve airline 
efficiency which would reduce greenhouse gasses. So I look 
forward to what this hearing would produce. And thank you very 
much and I yield back to the chair.
    Mr. Larson. I thank the gentleman from California, and now 
on to our panelists and again, we want to thank them for being 
here today.
    [The prepared statements of Mr. Blumenauer and Ms. Solis 
follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Larson. And first, I would like to recognize as the 
Chair comes back and assumes his position, Dan Elwell, the 
assistant administrator for aviation, policy, planning and 
environment of the United States Federal Aviation 
Administration, and Mr. Bob Meyers who is the principal deputy 
assistant administrator for the Office of Air and Radiation 
U.S. Environmental Protection Agency.

 STATEMENTS OF DAN ELWELL, ASSISTANT ADMINISTRATOR, AVIATION, 
    POLICY, PLANNING AND ENVIRONMENT, UNITED STATES FEDERAL 
   AVIATION ADMINISTRATION; AND BOB MEYERS, DEPUTY ASSISTANT 
   ADMINISTRATOR, OFFICE OF AIR AND RADIATION, UNITED STATES 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Larson. Thank you both for joining us and with that I 
yield to the chairman.
    The Chairman. I thank the gentleman and Mr. Elwell. 
Whenever you are ready.

                    STATEMENT OF DAN ELWELL

    Mr. Elwell. Thank you. Good morning, chairman Markey. Thank 
you for the opportunity to testify before you, Congressman 
Sensenbrenner and the members of the select committee.
    The environment is a page 1 issue no matter where page 1 
happens to be. It was the central theme of the FAA's annual 
forecast conference last month, and the subject of acting 
Administrator Sturgell's speech to the International Aviation 
Club. Whether you followed the proceedings in Bali or the 
recent meeting of the group on international aviation and 
climate change in Montreal, one thing is clear: Aviation's 
contribution to global change is getting a lot of attention, 
which is as it should be. And that is why I am so pleased to 
share with you today both U.S. aviation's exceptional 
environmental record to date and our plans to make it even 
better. The bottom line for us at the FAA and indeed for every 
citizen of this great land is that when you have the 
opportunity to do something for the environment, you do it. 
This issue should neither be partisan nor polemic. As global 
citizens, we have got to move forward with each opportunity. At 
the FAA that is specifically what is happening. We recognize 
the significance of taking care of the planet.
    In a day and age where aviation activity is on the verge of 
doubling, where annual passenger totals will surge past 1 
billion, it is imperative that we take steps that will make a 
lasting difference. Those steps form the very foundation for 
our plan for the next generation of air traffic control.
    NextGen is known as our blue print for the future. It also 
happens to be our plan to keep aviation green. With the 
aviation industry experiencing record growth, aircraft 
emissions remain a central environmental challenge as they 
contribute to global climate change and impact local air 
quality and noise near airports. From a business standpoint, 
failure to address these concerns could slow or stop the growth 
of aviation and the benefits it brings to our Nation.
    Aviation accounts for roughly 10 million jobs in the U.S. 
and over 5 percent of our national GDP. For the record, as I 
already said, aviation greenhouse gas emissions represent less 
than 3 percent of the world's total. Nevertheless we must do 
what it takes to reduce that number.
    To provide some context, there is some good news. When you 
compare 2006 to the year 2000, U.S. commercial aviation moved 
12 percent more passengers and 22 percent more freight while 
burning less fuel. Between 2000 and 2006, aviation emissions in 
the U.S. actually declined--that's right, declined--by about 4 
percent, reducing our carbon output by about 6 million tons.
    During the same period, European aviation emissions 
increased some 30 percent. And in light of this data, recent 
rhetoric from the EU threatening to cut or reduce U.S. flights 
to Europe if we don't pay for our carbon is, at best, 
impolitic, at worst, hypocritical. It is not surprising that 
the rest of the world rejected the European plan during the 
36th international Civil Aviation Organization assembly in 
Montreal last year.
    We, like most of the world, believe that the most efficient 
means of reducing aviation emissions is to reduce the amount of 
fuel that is burned. The aviation industry has made and 
continues to make significant improvements. Aircraft fuel 
efficiency has improved 70 percent over the last 40 years and 
it is only getting better. On a per-passenger mile basis, 
Boeing's new 787 will be as fuel efficient as today's 
subcompact hybrid car. These advances are taking place without 
a single government imposed emission standard for 
CO<INF>2</INF> and no mention of a cap.
    In the past 4 years alone, U.S. airlines have improved 
their fuel efficiency by 11 percent, U.S. airlines have 
voluntarily committed to an additional 30 percent improvement 
by 2025. With that said, forecasts are one thing, getting there 
is quite another. But with the price of oil over $100 a barrel, 
the motivation to reduce fuel consumption has never been 
greater.
    But back to what the FAA is doing. We have already 
implemented a program to reduce vertical separation between 
aircraft at high altitudes. It is saving about 3 million tons 
of CO<INF>2</INF> per year. We are redesigning air space. We 
are altering the routes planes use to descend into airports 
both here and overseas. That will allow us to use smooth 
continuous approaches that burn less fuel and make less noise 
while doing so.
    In short, anyplace and any way we can make a difference we 
are. And as we head into the design, development and execution 
of NextGen, I think that getting to zero emissions growth is a 
reasonable goal. In my written testimony, I described the five-
pillar approach that will get us there. It takes advantage of 
efforts like our aviation climate change research initiative, 
the commercial aviation alternative fuels initiative, FAA's 
proposed research consortium called CLEEN and a partnership for 
air transportation noise and emissions reduction.
    Aviation has faced many challenges in the past. We have 
solved them by coming together to produce collaborative efforts 
that have changed the way we operate as an agency and has 
literally changed the way Americans fly. I am confident that we 
will continue with that in the environmental challenge ahead. 
Thank you.
    The Chairman [presiding]. Thank you, Mr. Elwell, very much.
    [The statement of Mr. Elwell follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Our second witness on the first panel is Bob 
Meyers, the principal deputy assistant administrator in the 
Office of Air and Radiation at the U.S. Environmental 
Protection Agency. Mr. Meyers and I have been walking around 
the corridors of the Rayburn building here since the beginning 
of time almost.
    Mr. Meyers. Something like that, Mr. Chairman.
    The Chairman. When did you start working up here in the 
Rayburn building?
    Mr. Meyers. I started working for Congress in the late 
1970s.
    The Chairman. Around the same time I arrived here. We 
welcome you here and we appreciate your testimony.

                    STATEMENT OF BOB MEYERS

    Mr. Meyers. Thank you. Mr. Chairman and members of the 
committee. I appreciate the opportunity to appear before the 
committee concerning the important issue of aviation emissions 
and climate change. On December 4 and December 31st of last 
year, EPA received two petitions to set greenhouse gas emission 
standards for aircraft engines under the Clean Air Act. One 
petition was filed by several States, the City of New York the 
South Coast Air Quality Management District and the District of 
Columbia. The other was filed by several environmental 
organizations. The petitions raised similar but not identical 
issues. The relief requested in the petition centers on the 
finding of endangerment and adoption of Clean Air Act 
regulations.
    As Administrator Johnson recently informed the committee, 
EPA intends to issue an advanced notice of proposed rulemaking 
later this spring. This ANPR will cover a variety of issues 
arising from the supreme court's decision in Mass v. EPA and 
among the issues addressed, ANPR will seek comment and relevant 
data concerning the two aviation petitions the Agency has 
received.
    The ANPR will also seek comment and data with respect to 
additional petitions the Agency has received concerning non 
road and marine sources. Through the ANPR process EPA expects 
to gain valuable information and public insights regarding 
greenhouse gas emissions from such sources air connections 
among various Clean Air Act provisions and possible regulatory 
requirements. Your letter of invitation requested that I 
address four issues. Some of the questions posited were similar 
to the questions previously received by the Agency that were 
addressed in my letter to the committee of March 31st. In 
today's testimony, I would like to provide further response to 
your concerns and specifically information regarding emissions, 
potential use of biofuels, FAA coordination and the EU 
emissions trading scheme.
    Very briefly, the compound submitted from aircraft jet 
engines that directly relate to climate change are carbon 
dioxide and small amounts of methane and nitrous oxide. There 
are also emissions which more indirectly affect radiation 
forcing climate. As detailed in my written statement, the works 
of the International Panel on Climate Change reports to the 
Council of the International Civil Aviation Organization and 
other sources have examined these emissions. Overall, aircraft 
operations in the U.S. are estimated to account for about 10 
percent of greenhouse gas emissions from the U.S. 
transportation sector and approximately 3 percent of total U.S. 
GHG emissions.
    Section 231 of the Clean Air Act gives EPA authority to 
determine whether aircraft emissions contribute to air 
pollution which may be reasonably anticipated to endanger 
public health or welfare, and to set emission standards 
following a positive finding.
    Section 232 of the Act provides FAA with the authority to 
certify aircraft engines for emission purposes and to enforce 
compliance with EPA's standards. EPA has utilized this 
authority on several occasions including the 1982 standards for 
HC, or hydrocarbons, 1997 standards for NOx and CO, and further 
NOx standards in 2005. These standards essentially cover 
criteria pollutants and precursors for purposes of improving 
local air quality.
    With respect to fuel, commercial aircraft uses a petroleum-
based fuel commonly referred to as Jet-A kerosene. In 2006, the 
air travel industry and FAA established the commercial aviation 
alternative fuels initiative to explore the potential use of 
alternative fuels for aircraft for energy security and possible 
environmental improvements. And since the FAA's primary 
authority is this area, I would defer to the FAA to address 
their ongoing work in this area.
    Overall, as mentioned, U.S. aviation emissions have 
declined in recent years. Moreover, it is likely the aircraft 
fuel efficiency will improve in the future due to technology 
developments for lighter and more aerodynamic aircraft, as well 
as more efficient engines. In the long term, the expected 
increase in air traffic and lead times that are necessary for 
technology change and deployment could effect recent trends. As 
indicated previously, our upcoming ANPR will provide a context 
in which these issues can be assessed. With respect to 
coordination with the FAA, various offices within EPA and FAA 
are in frequent contact regarding aviation and environmental 
issues, including the next generation of air transport system 
plan.
    EPA has had substantial interactions with FAA in the 
development of aviation GHG inventories and we expect to 
continue our coordination with FAA in developing our responses 
to the two administrative petitions.
    Finally, you asked whether EPA was examining how the U.S. 
might comply with the EU trading scheme. As my letter of March 
31st addresses this issue, I would just generally state that 
the EPA technical staff had provided background data 
information regarding emissions and cap-and-trade programs 
during an interagency process.
    Again, thank you, Mr. Chairman and members, for giving me 
this opportunity, and this concludes my prepared statement.
    The Chairman. Thank you, Mr. Meyers, very much.
    [The statement of Mr. Meyers follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. And the Chair will now recognize himself for 
5 minutes for questioning.
    Mr. Elwell, the NextGen program was formed to plan for the 
future of aviation. In both your testimony and your response to 
the select committee's letter last year, your environmental 
efforts seem to be tangential rather than central to the future 
of aviation. Given the future of carbon constrained economy and 
the inevitability of some sort of European aviation emissions 
cap-and-trade system, how is it that you have not focused on 
global warming emissions as you plan for a rapidly increasing 
aviation industry?
    Mr. Elwell. Well, Mr. Chairman, in referencing NextGen, we 
have an integrated work plan, a rather large document, but we 
have devoted an entire section of the integrated work plan, 
which is basically the template from which we will implement 
NextGen. And the chapter is dedicated to environmental 
considerations and how we will mitigate our environmental 
footprint, so I wouldn't characterize our treatment of the 
environmental issue with regard to NextGen as tangential.
    The Chairman. Does the FAA see coal-to-liquid fuels as the 
future of jet fuel?
    Mr. Elwell. Well coal-to-liquid fuels is one area of 
alternative fuels being looked at. And the initiative I had 
mentioned in my testimony, CAAFI, or Commercial Aviation 
Alternative Fuel Initiative, is dedicated to the furthering for 
the proposal for alternative fuels that have a net decrease in 
greenhouse gas emissions. So to the extent to which coal to 
liquid can achieve that, then yes, we will be for it. But there 
is, as you are well aware, sequestration issues and life cycle 
issues.
    The Chairman. Now, the Virgin Atlantic and Continental are 
testing the biofuels in their planes, and is even funding 
research into biofuels. What work is being done to support 
biofuel development at your agency aside from a biofuels 
demonstration test flight?
    Mr. Elwell. Again, as part of our central participation in 
CAAFI and in the aviation climate change research initiative 
and our partnership program for lower emissions, we are 
intricately involved both in centers of excellence with 
university research, again CAAFI and ACCRI in all aspects of 
alternative fuel research.
    The Chairman. Mr. Meyers, as you point out in your 
testimony, EPA's decision on whether to regulate greenhouse gas 
emissions from aviation sector under section 231 of the Clean 
Air Act depends on an identical determination as Massachusetts 
versus EPA as to whether the emissions cause or contribute to 
air pollution that may reasonably be anticipated to endanger 
public health or welfare. We know from EPA's staff depositions 
to Congress that EPA finished the endangerment finding for 
motor vehicles and found that, indeed, EPA did believe that 
these emissions are dangerous.
    Since you have concluded that these emissions are dangerous 
when they come out of vehicles that drive on the roads, would 
it not be arbitrary to conclude that these emissions are not 
dangerous when they come out of vehicles that fly in the skies?
    Mr. Meyers. Mr. Chairman, thank you for the question.
    I think I might say that the documents that you are 
referring to are draft documents we have had that 
correspondence with the committee with respect to these 
documents. So as draft documents, any use in documents would 
not be conclusions.
    The Chairman. If you do formally conclude that greenhouse 
gas emissions from motor vehicles are dangerous, is there any 
reason that EPA did not conclude that emissions coming from 
aviation are not also as dangerous?
    Mr. Meyers. I learned a long time ago not to engage in 
hypotheticals. In that hypothetical I am not available to give 
you a detailed answer. I would say very clearly the 
endangerment language in 231 is very similar to that with the 
act to petition in the section 202, and when we looked at 
greenhouse gasses, we understand which pollutants they are and 
they are emitted from both mobile sources on road as well as 
offroad as well as aircraft.
    The Chairman. And do you plan on including the text of the 
endangerment finding you already completed for vehicle 
emissions in the advanced notice of proposed rule?
    Mr. Meyers. Mr. Chairman, we are just initiating work now 
on the ANPR, so decisions regarding final documents and final 
support documents have not been made at this point in time. I 
think as I related to the committee and other committees on the 
Hill indicates that we plan to utilize the work that was 
performed by EPA over last year in response to the greenhouse 
gas petition and with reference to the President's 20-in-10 
initiative.
    The Chairman. I thank you. The Chair now turns and 
recognizes the ranking member, the gentleman from Wisconsin.
    Mr. Sensenbrenner. No questions.
    The Chairman. The Chair recognizes the gentleman from 
Missouri, Mr. Cleaver.
    Mr. Cleaver. Thank you Mr. Chairman. Mr. Elwell, do you see 
a conflict between some move to reduce emissions and a strong 
safety record? Is there a conflict between trying to reduce 
greenhouse gas emissions and safety?
    Mr. Elwell. Mr. Cleaver, if you are asking are they 
mutually exclusive, clearly not. We can pursue both and we 
clearly have. We are currently in the safest period that we 
have ever seen. And we also are just wrapping up a decline in 
fuel burn despite the fact that we have carried more people and 
freight. So I think the record is clear that we can do both.
    Mr. Cleaver. I raise the question only because there was 
discussion about planes falling. And I thought it might be 
important for us to just get that on the record. The committee 
is not saying ignore public safety and concentrate on 
greenhouse gas emissions.
    What is the future, based on your analysis, in the aviation 
industry with regard to reducing greenhouse gas emissions? And 
I am not sure whether, who does the, whether FAA or whoever 
would look at the other atmospheric emissions and whether there 
is a difference there than on Earth. Do you have any thoughts 
about that or knowledge about whether that has ever been looked 
into or whether you believe that it ought to be looked into?
    Mr. Elwell. We certainly believe it needs to be looked 
into. In my written testimony, I go through the pillars of our 
plan go forward, and the first pillar is a better understanding 
of the impacts of the various emissions that combustion 
produces. One thing we know for sure is that CO<INF>2</INF> is 
not altitude dependent, so there is no multiplying effect of 
CO<INF>2</INF> wherever it is emitted. And we believe and it 
has been posed before that the other pollutants have some 
magnification at altitude. As recently, the IPCC is actually 
most recently said that the science is so uncertain as to that 
``multiplier'' as to them not giving one actually. And so our 
involvement in ACCRI, Aviation Climate Change Research 
Initiative, is focused on exactly those issues.
    Mr. Cleaver. Thank you, Mr. Chairman I yield back the 
balance of my time.
    The Chairman. The gentleman's time has expired. The Chair 
recognizes the gentleman from New York State, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman, and thank you to the 
witnesses. Mr. Meyers, I want to ask you, in your written 
testimony you mentioned the Fischer-Tropsch synthetic which was 
produced by the Nazis for various fuels including aviation fuel 
I believe during World War Two. And the Fischer-Tropsch 
reaction is apparently--I believe there are a couple of studies 
I have heard about that are going on now to pull carbon dioxide 
out of the air, process the carbon in it into a liquid fuel, 
upon which combustion releases a similar amount of carbon 
dioxide back into the air in a carbon neutral process which 
would provide us, if one uses, in parts of the country and 
parts of the world, where the sun shines almost constantly or 
where the wind blows almost constantly using those renewables 
as the energy to drive the Fischer-Tropsch reaction. Are you 
aware of any studies along those lines? And what are your 
thoughts?
    Mr. Meyers. I would be happy to get back to the record on 
the specific studies to be aware of. My office is primarily a 
regulatory office out of EPA and we have an Office of Research 
and Development. But generically, obviously, it is going to 
depend, Fischer-Tropsch is a process that will depend on 
feedstocks. You can use Fischer-Tropsch with coal and has been 
done for some time, as you mentioned, both in World War II and 
in South Africa in more recent years. So I would say it is 
probably theoretically possible but I would have to get back to 
the record for more specifics.
    Mr. Hall. I am curious about this because I have been 
hearing about it. If you do an Internet search for Fischer-
Tropsch, a lot of sites show up with different things on them 
and you can't believe everything you read on the Internet, but 
wouldn't it be nice if it were true.
    Mr. Elwell I don't know if you want to comment to this. 
Since Mr. Meyers referred to you on that part his testimony and 
I have one other question also.
    Mr. Elwell. And no to the Fischer-Tropsch. It is out of my 
realm.
    Mr. Hall. It seems to me that using an existing carbon fuel 
like coal obviously is something we know how to do with that 
process to create liquid fuels. But we also know, so far 
anyway, that we are faced with either sequestering massive 
amounts of carbon dioxide or using a fuel that could already be 
used in other ways, whereas storing solar or some other 
renewable--the big problem people always say about the sun and 
the wind is you can't always predict when it is going to shine 
and you can't always predict when it is going to blow. But if 
you could store it and basically use the liquid as a battery or 
use hydrogen as a battery in a similar way by separating water 
into hydrogen and oxygen, and then burn the hydrogen, that is 
not something I am advocating for airplane fuel, but it is 
something that can be used for generation of electricity.
    But this is a similar thing for Fischer-Tropsch if a carbon 
dioxide neutral process could be developed using it. The other 
question I had, you mentioned continuous descent as part of 
NextGen, and I sit on the Aviation Committee of Transportation 
and Infrastructure, and I've been very interested in that 
because particularly in my district we have a couple of towns, 
the Town of Pound Ridge and the town of Warwick in the 19th 
congressional district that are being affected or feel that 
they are being affected already by the New York air space 
redesign, and they are hearing that stepping down of planes 
going from descent to hover to descent to hover as they wait to 
be cleared for the next 2,000 foot drop. And of course the 
engines have to rev up to hold altitude and then rev down to 
descend, and once they can get on to continuous descent, they 
hopefully will be less noticed.
    They might be making as much noise sort of on average, but 
it is that change in pitch that I think is especially noticed 
by people out in the country, and where they are used to the 
peace and quiet. Is this something that can be done in any 
parts of, for instance, in New York air space before full 
implementation of NextGen?
    Mr. Elwell. NextGen, before full implementation, it can be 
done, in fact, over 25 percent of the approaches right now in 
L.A. are using CDA. And we are putting it in where we can. 
Obviously, probably one of the most difficult places to do it 
consistently is in the northeast sector which is why the 
redesign is so important. But once, as you mentioned, once 
NextGen is fully implemented, our hope is to have CDA be the 
norm and step down arrivals would be the exception.
    And you are right. The ability to go to idle from altitude 
and bring up your power half a mile from the threshold huge 
emissions benefits and below 6,000 feet about a 30 percent 
reduction in overall noise.
    Mr. Hall. So it is good both for noise and for 
CO<INF>2</INF> emissions and that is what we are after. My time 
is done. Thank you, Mr. Chairman.
    The Chairman. Mr. Elwell, if you wanted to do a great job 
on NextGen, what kind of resources would you need for Congress 
to give you?
    Mr. Elwell. A little bit over a year ago, the FAA, the 
administration proposed our NextGen reauthorization bill, and 
it offered some financing reform initiatives that would we 
believe allow us to pay for and implement NextGen as quickly as 
we are able. It had some dedicated funding for NextGen. 
Obviously, that legislation has lagged some. But we absolutely 
need your cooperation and partnership, Congress, and the proper 
and timely funding for the capital expenditures for NextGen and 
for----
    The Chairman. Can you give me a number?
    Mr. Elwell. We had in our proposal a plan to spend $4.6 
billion over 5 years just on NextGen. And the President's 
budget supports that. So that is what we are asking for.
    The Chairman. Okay, great. Thank you. And Mr. Meyer, in 
January, the select committee sent you a letter asking about 
the EPA's commitment to aviation emissions and climate change. 
Your reply which we received 2 days ago stated that ANPRN has 
not taken a formal stance on the effects of aviation on climate 
change.
    When will you address this issue? And will it be separate 
from an endangerment finding?
    Mr. Meyers. We will be addressing these issues as well as 
other issues effecting climate change in the context of an 
ANPRN.
    The Chairman. So you will be doing it in the context of the 
announcement that you made last week?
    Mr. Meyers. Right.
    The Chairman. Okay. That is helpful to us. Does the 
gentleman from Missouri have any other questions?
    Mr. Cleaver. Mr. Chairman, one other question. I was 
intrigued by Mr. Hall's comment about the airport in his 
district. Is that something, for either of you, is that 
something that you believe to be possible and if so, is it 
something that you would encourage where airports would move 
toward becoming carbon neutral, at least in the ground 
operation with renewable fuels and so forth?
    Mr. Elwell. Absolutely encourage it. In fact, we have a 
program called VALE, Voluntary Airport Lower Emissions program, 
in which we allow airports to spend money on electric vehicles 
and tank refuelers as opposed to using trucks. All of the 
things that were mentioned by your colleague. Electric, plug 
into airplanes for fueling, cooling so that they don't need to 
turn on the engines. So yes, the short answer is absolutely.
    Mr. Cleaver. Is there any, do you have any material and 
documentation, that we would need that I would be able to look 
at?
    Mr. Elwell. Yes, we do, sir.
    Mr. Cleaver. I would really like to see that. That is very 
intriguing.
    The Chairman. Just so I can clarify, is it possible, Mr. 
Meyers, that when the advanced notice of proposed rulemaking 
comes out that there won't be something in there? Is one of the 
options a consideration of the endangerment finding or there 
won't be an aviation component? Is that also possible?
    Mr. Meyers. We are in the process of drafting, so I think I 
should probably allow for any possibility during that process 
of drafting an interagency review.
    But as the letter indicated that was sent to your committee 
and others, we were looking at the ANRPN as a vehicle to 
address--we not only have two aviation petitions, we have five 
other petitions covering off road and marine.
    So traditionally under our process when we get petitions of 
this sort, as we did last year when we had a petition with 
regard to leaded aircraft general aviation aircraft gasoline, 
we solicited the information we needed to address the petitions 
through an ANPRN. So that would be our intent with respect to 
the aircraft petitions.
    Relative to your question on endangerment, as I think we 
have referenced in the letter, that we would be looking both at 
the science and climate change and that relationship to 
endangerment finding that would occur, and that would be in the 
context of the ANPRN also.
    The Chairman. Is it possible that it will come out without 
any actual proposal of either endangerment or regulations for 
any sector?
    Mr. Meyers. Well, fairly much by definition of advance 
notice, does that normally conclude with a proposal? It is 
meant as an advance notice of proposed rulemaking, not as a 
formal notice of proposed rulemaking.
    The Chairman. But you are saying it doesn't necessarily 
mean that either the endangerment finding or something on----
    Mr. Meyers. Well, I think what we tried to indicate was 
during the course of our consideration over the last year, and 
as the committee knows, there was a lot of work done with 
reference to not only vehicle emissions but the endangerment 
issue, and also not covered by the act of petition of the 
fuels.
    We look very heavily at the fuels. As the Administrator has 
testified in respect to previous hearings, we had the passage 
of the energy bill to take into consideration in December.
    So in the context of our letter, an explanation of our plan 
going forward was to examine the interconnections of the Clean 
Air Act that occurred both between the mobile and stationary 
sources. Obviously with respect to the Massachusetts vs. EPA 
decision, the context of regulatory decisions are essentially 
channeled through a follow-up of endangerment finding in 
accordance with the opinion and in accordance with the 
structure of the statute.
    The Chairman. So at the pace at which this is proceeding, 
it is possible that the President could leave office, President 
Bush could leave office without any decision actually having 
been made on endangerment and without any decision actually 
having been made in this one hearing--a focus on the role of 
aviation and a solution to the problem?
    Mr. Meyers. Well, I think the path for the Administrator's 
outline is to issue an ANPRN this spring, allowing for a public 
comment period. Then at the end of that process, we would 
consider on the basis of that information how best to respond 
to the Massachusetts vs. EPA case and its implications 
throughout the act.
    The Chairman. How long is the comment period?
    Mr. Meyers. That has not been established traditionally in 
this area. One would look at--it is a substantial notice, a 
substantial issue, so normally 60 days would be a rough minimum 
time.
    The Chairman. So 60 days for the advanced?
    Mr. Meyers. I want to be clear. We have not determined the 
period of actual public comment. I won't determine that, the 
Administrator will determine that when he would sign the 
advance notice.
    Just normal practice in order to give sufficient notice on 
large issues--and certainly the large issues with respect to 
Massachusetts vs. EPA, normally is 16, and perhaps a 9-day 
process would be appropriate. I just want to emphasize that is 
a decision that the Administrator will make at the time the 
document is prepared.
    The Chairman. I guess from my perspective there has been a 
lot of time to think about these issues since the decision, and 
my request to you would be to consider making this as brief a 
period of time as possible. I think people are ready to 
comment.
    Mr. Meyers. I appreciate that, Mr. Chairman, and we will 
certainly convey that to the Administrator. I think the balance 
here on any public comment period is between having a fulsome 
comment and the ability of all parties to provide information, 
as well as the desire to move expeditiously.
    The Chairman. I agree with that. That has to be balanced in 
that the EPA is just running out the clock on the Bush 
administration and actually will not have a decision before the 
President leaves office. So in that context at least, these 
decisions are being made about the length of time that is going 
to be given for comment as opposed to action.
    So that is just the legality of it, I understand. But I 
caution that that will be, perceptually, how you would, given 
the length--given thus far to think about the issue.
    My time has expired.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Thank you.
    Mr. Meyers, was your Agency, was EPA involved at all in the 
Air Force procurement decision about the new tanker? The Air 
Force decided to buy a tanker that uses 24 percent more fuel 
per mile of product than another aircraft that uses 24 percent 
more efficient; therefore, has 24 percent less CO<INF>2</INF> 
emissions.
    Were your agencies involved in that at all?
    Mr. Meyers. I will be happy to check on that. I have no 
memory of any involvement by the Office of Air and Radiation.
    Mr. Inslee. I doubt the Office of Air and Radiation, but I 
just wonder if the EPA in general would have been involved in 
that?
    Mr. Meyers. I will need to check with the other offices, 
and we would be happy to provide that for the record.
    Mr. Inslee. The reason I ask is that this is kind of a new 
issue to me, but it seems to me one thing we need to start 
thinking about in our Federal procurement, when we are buying 
aircraft to think about the CO<INF>2</INF> emissions.
    We had one product that reduces CO<INF>2</INF> emissions by 
a full quarter, and we didn't buy it. We bought a competitor, 
which also happened to be significantly produced in Europe, 
which is another issue.
    Do you have any guidance on that? I would be appreciative, 
because it seems to me that is something we ought to be 
thinking about.
    Mr. Elwell, I am told that the FAA's budget requested $300 
million for environmental stewardship but the primary goal of 
those were noise pollution abatement, while only about $10 
million was for research in new aircraft technology to help 
reduce emissions.
    Is that the situation, and is that really adequate to the 
task if we really want to reduce emissions?
    Mr. Elwell. Well, as I mentioned, noise--or in my written 
testimony--noise remains the major concern for local 
communities and local airports. And the money that you are 
talking about is spent for insulation for noise--for 
infrastructure noise mitigation.
    I think the stewardship of every dollar that we get for 
research, particularly in developmental research for design, 
engine and airframe, is spent primarily--we leverage every 
dollar, I should say, with our Center of Excellence, with the 
MIT-administered partner program.
    So we can always do more with the challenges we have 
budgetarily. I think we do the best with what the Agency has.
    Mr. Inslee. I am sorry, 90 percent of that is used then for 
infrastructure. Whose infrastructure improvements are you 
referring to?
    Mr. Elwell. Do you mean the 300 million?
    Mr. Inslee. Yes. You said the bulk of it goes to 
infrastructure improvements, insulation and the like. Whose 
infrastructure are you are talking about?
    Mr. Elwell. We are talking about residents and inhabitants 
within the noise-affected area of airports.
    Mr. Inslee. Well, we certainly would encourage you to think 
more aggressively on trying to embrace these new technologies 
because we think they are happening.
    Boeing has a new airplane. The 787 has 20 percent more fuel 
efficiency than any other plane on the market. There are great 
things going on.
    By the way, I was talking to somebody yesterday, just by 
happenstance, about turboprop technology that may be looked at. 
You may have talked about this already. Do you have any 
thoughts about that? Or is that something that you are 
supporting?
    Mr. Elwell. Yes.
    Mr. Inslee. I am told that it has markedly better fuel 
efficiency if we can get over some of the noise issues.
    Mr. Elwell. I have read some of the same things and don't 
know much more other than what you are saying, other than there 
are some advancements being made in turboprop technology, 
quieter turboprop engines, more fuel-efficient turboprop 
engines. Again, anything that reduces noise and emissions we 
are in favor of.
    Just to add to your comment about the money that we are 
spending, we do--as I mentioned earlier before you came in, 
about our reauthorization proposal--have significant increases 
in funding for this fundamental--or the developmental research 
for engines and airframe.
    Mr. Inslee. Well, we will look forward to that. Thank you.
    The Chairman. Great. The gentleman's time has expired. I 
don't know if the gentleman from Missouri has any other 
questions.
    Mr. Cleaver. No, thank you, Mr. Chairman.
    The Chairman. We thank you for your testimony. We look 
forward to working with both of you in the next several months.
    We are going to be, obviously, paying very close attention 
and escalating our level of attention to these issues. I would 
ask both agencies to move quickly. The urgency of the problem 
is in Washington, and I think the public and the world is 
looking to us to find answers to the questions in a timely, 
telescoped time frame way. We thank both of you for your 
testimony.
    Our second panel, if they would move up as soon as the 
first panel--while you are doing that, I will mention that both 
Virgin Atlantic and Boeing have submitted testimony for the 
record, and I ask unanimous consent to include the testimony of 
Boeing and Virgin Atlantic at some point.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. We welcome the second panel. The second panel 
will have as a lead-off witness Mr. Jim May, who is the 
President and CEO of the Air Transport Association. He was 
named the President and CEO in February of 2003. Prior to 
joining the ATA, Mr. May served as Executive Vice President for 
the National Association of Broadcasters. So our paths have 
been crossing since the beginning of time.
    Mr. May's father was also a member of this body, of the 
United States Congress. It is obviously a place that you are 
very familiar with and comfortable with and we welcome you 
back. Whenever you are ready, please begin.

    STATEMENT OF JIM MAY, PRESIDENT AND CEO, AIR TRANSPORT 
                          ASSOCIATION

    Mr. May. Thank you, Mr. Chairman; albeit, as you point out, 
in a somewhat different context. It was my mother, actually, 
who served from the great State of Washington for a number of 
years.
    The Chairman. Really. What years were they?
    Mr. May. 1958 through 1972.
    The Chairman. She was one of the very first Members----
    Mr. May. One of the early Members and, of course, the great 
State of Washington has had a great a tradition of women 
serving in high elected positions. We are all very proud of 
that.
    The Chairman. I thought it was your father all these years.
    When you are ready, please begin.
    Mr. May. Thank you, Mr. Chairman, and members of the 
committee. I want to emphasize, first, three points.
    First, commercial airlines are extremely greenhouse gas 
efficient.
    Second, we are proactively committed to further limiting 
greenhouse gas footprints and are actively and aggressively 
pursuing a comprehensive plan to achieve that outcome.
    Third, I think there is a critical role for the Federal 
Government to play, not for the industry, not against the 
industry, but rather with it.
    Commercial airlines are extremely greenhouse gas efficient. 
Aviation has a decidedly strong track record that I think is 
often overlooked or misstated. We contribute just 2 percent of 
domestic greenhouse gas emissions today compared to 25 percent 
for the balance of the transportation industry. I think this is 
no small achievement given that we are essential to the 
economy, support nearly 9 percent of U.S. employment.
    Today's airplanes are not just smarter, they are quieter, 
cleaner, use less fuel than ever before. And we fly them 
smarter, as has been talked about today.
    U.S. Airlines has been able to deliver more value by 
constantly improving fuel efficiency through fuel reinvestment 
in technology and efficient operations. We improved our 
efficiency over 100 percent between 1978 and 2006, resulting in 
2.3 metric tons--2.3 metric billion tons of carbon dioxide 
savings, which is the equivalent--as the slide shows--of taking 
17 million cars off the road in each of those years. While 
doing that we burned 4 percent less fuel in 2006 than in the 
year 2000, carried 12 percent more passengers, 20 percent more 
cargo.
    Our greenhouse gas efficiency compares favorably to other 
sectors and modes. Today our planes are as fuel-efficient, as 
was testified by the FAA, as compact cars, and, at the same 
time, we are carrying more goods and people over six times 
faster. We are highly motivated to continue this trend.
    Fuel is our largest cost center, averaging 50 percent of 
operating expenses, costing us $41.2 billion in 2007 and 
projected to grow to $55 billion in 2008.
    The market is sending the commercial airlines the price 
signal that some call for in legislation. As demand for air 
service grows, some growth in aviation is predicted. But that 
is a good thing. We are key to driving a more environmentally 
efficient economy, optimizing global value change, and creating 
greater and social economic opportunities for people.
    Let's keep growth in context. The Intergovernmental Panel 
on Climate Change has determined that under the most likely 
scenario, carbon dioxide from global aviation in 2050 will grow 
to about 3 percent of total man-made carbon dioxide emission 
from the 2 percent it is today.
    Now, at the core of our efforts, carriers have made a 
commitment going forward to improve fuel efficiency by an 
additional 30 percent by 2025. That is roughly equivalent to 
taking over 13 million additional cars off the road each year. 
These improvements will come only from our continuing airlines' 
investments.
    In fact, achieving our goal will require approximately a 
$730 billion investment between now and 2025, which is a high 
hurdle under any circumstances, but particularly in these 
difficult financial times.
    Recognizing that today's carbon-based fuel supply can only 
take us so far, our airlines are also making extensive resource 
commitments to stimulate the development of commercially 
viable, environmentally friendly, alternative fuel through 
CAAFI, which has been talked about earlier.
    Congressional leadership, however, is needed, and it is in 
four areas. First, we would hope that Congress would work to 
ensure that our outdated traffic control system is modernized 
to permit more direct routes, saving fuel and emissions. 
Studies show this will reduce emissions by 10 to 15 percent on 
top of the 30 percent that we are already projecting for fuel 
savings.
    Next, we urge Congress to reinvigorate NASA and FAA and 
environmental aeronautics R&D programs. Additional 
revolutionary advances in engine and airframe technology can 
only come through the government-led R&D that serves to 
preserve America's leadership in aeronautics.
    Third, we ask Congress to spur further commercial 
development of alternative and environmentally sensitive jet 
fuels.
    Finally, we urge you to calibrate any climate change-
related legislation so it doesn't work against our efforts. To 
continue our fuel efficiency and other advances, we have got to 
have the capital to invest. Any of the economic measures that 
siphon funds out of our industry would severely threaten that 
process.
    Accordingly, while we don't believe a further economic 
measure such as cap and trade is necessary for aviation, if 
such a measure were to be applied, it should be carefully 
calibrated to take key considerations into account. They 
include allocation of allowances to reflect aviation's fuel 
efficiency achievements to date, reinvestment of proceeds into 
aviation--very important--and accounting for the reality that 
aviation is a global business.
    In closing, Mr. Chairman, the airlines have a great 
environmental track record and are committed to improving on 
that. Congressional leadership is needed. We are asking you not 
to work for us, we are asking you to work with us as we address 
the important environmental and energy concerns that we all 
have. Thank you.
    The Chairman. Thank you, Mr. May.
    [The statement of Mr. May follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Our next witness is Tom Windmuller. He is the 
Senior Vice President for the International Air Transport 
Association. He is a long-time veteran on these issues, and we 
welcome you before our panel.

      STATEMENT OF TOM WINDMULLER, SENIOR VICE PRESIDENT, 
                  INTERNATIONAL AIR TRANSPORT

    Mr. Windmuller. Thank you very much, Mr. Chairman.
    We appreciate the opportunity to brief the committee on the 
steps the aviation industry is taking to reduce its 
environmental footprint. Let me begin by saying that we support 
and endorse everything that my colleague Jim May has already 
said.
    Climate change is a big global program. The air transport 
industry is a small but significant part of that big problem.
    The title of today's hearing signaled to me that it is 
important to put aviation emissions in perspective. The 
Intergovernmental Panel on Climate Change reports that aviation 
currently represents 2 percent of global carbon emissions and 
could reach 3 percent in the next 43 years.
    More importantly, the air transport industry has an 
enviable record of significantly reducing its environmental 
footprint. Over the last 40 years, we have eliminated black 
smoke from aircraft engines while reducing noise and increasing 
fuel efficiency by 75 percent.
    Since 1997 alone, IATA members have improved their fuel 
efficiency by a full 20 percent with a corresponding reduction 
in CO<INF>2</INF>. I am not aware of any other industry with 
this green a track record.
    However, the aviation industry is not resting on its record 
of success. We have set ourselves a target to improve fuel 
efficiency by an additional 25 percent by 2020, and we will 
reach this target by replacing old aircraft and retrofitting 
the remaining fleet.
    I would note, as has already been said, that our American 
members, also represented here today by my colleague at the Air 
Transport Association, have set themselves an even tougher 
target of 30 percent better fuel efficiency by 2025, and their 
leadership will serve as an example for the rest of the world.
    IATA has an aggressive four-pillar strategy in place to 
achieve carbon neutrality and, ultimately, zero carbon aviation 
emissions. We are confident that we will reach this greener 
future that we all strive for by investing in fuel-efficient 
technology, flying planes more effectively, building and using 
efficient infrastructure and developing and implementing 
positive economic incentives.
    Some may doubt our ability to reach these goals. However, 
airlines have an enormous incentive to achieve these targets as 
quickly as possible.
    Today, IATA airlines face a $156 billion fuel bill that 
represents 32 percent of their operating costs. Our only hope 
to survive as viable businesses is to increase our fuel 
efficiency. Greater fuel efficiency means less carbon. It is 
that simple.
    In 2007, IATA worked with airlines and governments around 
the world to reduce our members' carbon emissions by $10.5 
million tons through the implementation of more efficient air 
routes and flying smarter. We anticipate that the introduction 
of the Boeing 787 and similar equipment, along with promising 
work in alternative fuels, will result in significant 
additional savings going forward. However, we cannot reach our 
goal of carbon neutrality, let alone zero carbon emissions, 
alone.
    Let me suggest to this committee what it can do and what it 
should not do to help us reduce and ultimately eliminate these 
emissions.
    First, we need Congress to restore FAA and NASA funding of 
research into lighter materials, radical new aerodynamics and 
new algae-based fuels. Perhaps there is also a role here for 
the national labs.
    Secondly, we need the Congress to fund the next generation 
of air traffic control in the U.S. and insist that the FAA 
accelerate its implementation.
    Thirdly, we need you to pursue positive economic measures 
such as tax credits for airlines and manufacturers that invest 
in cleaner technologies.
    Most importantly of all, we need this committee to avoid 
the temptation of imposing a barrier on the industry's 
achieving these challenging environmental goals that we have 
set. For example, if the U.S. Government were to pursue an 
emissions trading scheme that is as flawed as that being 
considered by the European Union, that would only postpone the 
day when we reach our ambitious environmental targets.
    The European ETS scheme is green in name only. As currently 
designed, it will act as a carbon tax and reduce the resources 
airlines have to effectively address this challenge, thereby 
postponing our progress. It is an illegal unilateral scheme 
that proposes to address a global problem with a shortsighted, 
piecemeal approach. It is bad policy that will hinder rather 
than help us all reach our goal of carbon neutrality and 
ultimately carbon emissions.
    We urge the committee to strongly consider the positive 
role it can play in advancing our shared goals of a carbon-free 
future and avoid the temptation of taxes and charges in the 
name of the environment that will only postpone the day we 
reach these goals.
    We welcome the opportunity to work with this committee, 
going forward, to ensure that our shared visions become 
reality. Thank you for your consideration. I would be pleased 
to take your questions.
    [The statement of Mr. Windmuller follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you, sir, very much.
    Our final witness is Mr. Deron Lovaas. What is the name of 
the point guard for the Utah Jazz, do you know?
    Mr. Lovaas. Oh, Deron, that is right.
    The Chairman. Same spelling.
    Mr. Lovaas. Very same spelling. You are exactly right. 
There is more than one of us. I think I am the only Deron.
    The Chairman. So you are the point guy on this.
    Mr. Lovaas. Yes.
    The Chairman. You are the Transportation and Energy Co-
Director of the NRDC, the National Resources Defense Council, 
on these issues. We welcome you, sir, whenever you are ready to 
begin.

    STATEMENT OF DERON LOVAAS, TRANSPORTATION AND ENERGY CO-
          DIRECTOR, NATURAL RESOURCES DEFENSE COUNCIL

    Mr. Lovaas. Thank you, Mr. Chairman, and members of the 
committee for giving me the opportunity to testify today.
    Just referring back, launching the Apollo program to send a 
man to the Moon in the 1960s, President Kennedy made it clear 
that we do that not because it is easy, but because it is hard.
    The Chairman. I wish Mr. Inslee could be here. Mr. Inslee 
has written a book. I wish he were here.
    Mr. Lovaas. That is right. Well, this is a similar 
situation with aviation which is central to the new choice 
which faces of aviation we are going to hew to a new path that 
cuts heat-trapping pollution, as well as oil dependence, or 
take a path towards dangerous climate change.
    Government can and must step up to a leadership role if 
aviation is to thrive in a carbon constrained world by taking 
steps which will boost efficiency and develop cleaner energy 
alternatives.
    Transportation will make up 28 percent of the U.S. energy 
demand in 2008. Jet fuel will account for 11 percent of that 
energy demand. However, it will only account for about 3 
percent of total energy demand.
    As of 2004, it accounted for about 12 percent of total 
heat-trapping carbon dioxide emissions in the United States, 
but heat-trapping emissions continued to grow because aviation 
is one of the fastest growing sectors in the economy, and those 
emissions are exacerbated by the fact that altitude enhances 
the climate forcing properties of pollutants in a plane's wake.
    As the witness from the FAA stated, the science is still 
unclear, but it is clear there is an enhancement effect. The 
size of it, the magnitude of it is in question.
    Unfortunately, a big entity, the Air Force, is in pursuit 
of alternative synthetic liquid fuels, specifically liquid 
coal. This is like the tale wagging the dog when it comes to 
fuel since the military uses less than 2 percent of 
transportation fuel and the Air Force is merely a subset of 
that.
    Liquid coal as a substitute is fundamentally at odds with 
other national priorities such as fiscal responsibility and 
climatic stability. According to the Department of Energy, 
liquid coal produces double the warming emissions compared to 
conventional gasoline.
    Even if CO<INF>2</INF> released by liquid coal plants is 
captured and stored, the emissions would still be higher from 
today's crude oil system. Launching this industry is an 
expensive proposition with each plant costing billions of 
dollars.
    Some in aviation seem keen on other high carbon institutes. 
United and American Airlines have both gone on the record 
supporting the expanse of a pipeline system bringing tar sands, 
derived oil, to the Chicago region where refining of tar sands 
by ConocoPhillips is directly linked to O'Hare Airport. There 
is also renewed interest in carbon intensive oil shale 
development in the west, specifically from the Air Force.
    Instead, what we need to do is make much more efficient use 
of jet fuel by taking these steps. Transition to more fuel 
efficient airplanes and engines, which includes exciting 
developments like the Boeing 787, which I know Mr. Inslee 
mentioned earlier--which uses 20 percent less fuel than 
comparable aircraft--improved air traffic control can also 
yield energy and CO<INF>2</INF> savings.
    Here I will quote Jim May, who says rightly that studies 
consistently have shown that modernization of the air traffic 
control system will improve fuel efficiency and reduce 
greenhouse gas emission by 10 to 15 percent. But no matter how 
efficiently used, something needs to fill the tank. We should 
either stick with conventional fuel for aviation or look for 
substitutes that are lower, not higher in carbon intensity.
    Biofuels show some promise, in partnership with Boeing and 
GE Aviation, Virgin Atlantic, as they say in their testimony, I 
imagine, already successfully tested the use a blend of jet 
fuel and biofuel in a flight from London to Amsterdam. 
Continental plans something similar in early 2009.
    One possible source for aviation is algae, a net absorber 
of carbon dioxide and a source of energy rich oil that can be 
turned into fuel. Investments in intercity rail as an 
alternative--short home mode of transport and should also be 
part of this strategy. A full high-speed electric train emits 
between \1/10\ and \1/4\ of aircraft greenhouse gas emissions. 
Also the moral, while we save elsewhere in transportation, the 
lower the need for substitutes for aviation.
    Indeed, energy, NRDC projects that new policies enacted, 
thanks to this Congress in 2007, will save almost 4 million 
barrels of oil a day nationally by 2030. That is a good start 
and Congress must go further by taking these steps.
    First, do no harm. We need to protect and monitor 
implementation of section 526 of the 2007 energy bill, a 
Federal procurement provision that provides much needed 
backstop to insure the Federal Government does not use its 
purchasing power to buy fuels that produce more global warming 
collusion than conventional gasoline.
    Second, NRDC has joined five States in the District of 
Columbia as well as four fellow organizations led by Earth 
Justice to petition the EPA to regulate emissions of heat-
trapping pollution. EPA has regulated emissions from aircraft 
pursuant to the Clean Air Act, but not those that contribute to 
global warming.
    As the Chairman said earlier to the EPA witness, we believe 
now is the time for that to change. Although there are 
improvements that should be made, thirdly, the Lieberman-Warner 
bill as passed by the Senate Environment and Public Works 
Committee is a very strong start toward an economy-wide climate 
stabilization strategy. The bill includes a low carbon fuel 
standard, a technology neutral and performance based standard 
for transportation fuels.
    Fourth, again, to quote Jim May, Congress should ensure 
that our outdated if inefficient air traffic control system is 
modernized. The solution, as the Energy Security Leadership 
Council called for in 2006, is for Congress to require the FAA 
to improve commercial air traffic routing.
    Last but not least, we agree with the ATA on the need to 
reinvigorate NASA and FAA environmental aeronautical research 
and development programs. For aviation, big breakthroughs in 
structures in engines as well as low carbon energy substitutes 
are hard to come by. The Federal Government must help spur 
leaps forward in technology as it did with the Apollo Space 
Program.
    Thank you so much, Mr. Chairman.
    [The statement of Mr. Lovaas follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you. Let me recognize the gentleman 
from Missouri for a round of questions.
    Mr. Cleaver. Thank you, Mr. Chairman. During the panel 
prior to your presence here, there was mentioned the fact that 
perhaps biofuels would be dangerous to airliners. Do any of you 
have any notion at some point that our technology would reach 
the point where biofuels could be used in aircraft?
    Mr. May. Mr. Cleaver, I think we have had some experiments 
that have taken place already that show that biofuels have some 
very real promise. What we all need to be concerned about is 
the safety issue, in particular the exacting specifications 
required for aviation fuel that are driven in no small part by 
the realities of altitude and the realities of temperature.
    So we are, through CAAFI, as others are, very committed to 
trying to find as many reasonable alternatives as possible to 
include biofuels but with the understanding and the recognition 
that we all have to be very sensitive to the exact 
specifications.
    We recently, our board, adopted a set of specifications 
that we think are going to be important. We are very, very 
committed because, in addition to the fuel savings of 
traditional fuels, in addition to the savings for air traffic 
control and fuel, our alternative fuels become critical.
    To buttress a point that my colleague said a minute ago 
from NRDC, we want to make sure they are net positive from an 
environmental standpoint.
    Mr. Cleaver. Yes. I think we do this as well. That is 
encouraging.
    Now, Airbus and Boeing are manufacturing two passenger 
airplanes that are much lighter and much more costly. I am 
wondering how much longer do you think it would take to change 
our inventory to the lighter aircraft using far less fossil 
fuel?
    Mr. May. I know Tom will have some comments on this as 
well, but between, I think--I will reserve judgment on the 
exact year, but over the last 4 or 5 years, we have spent an 
additional $33 billion on fuel. It is our number one cost 
center. That equates to roughly 330 aircraft.
    So it is a function of the financing of this industry, and 
it leads me to the point that is central to my testimony, which 
is we want to be as green as anybody else in this world. We 
think we are doing a terrific job of doing that. We need to 
make sure that the legislative and regulatory environment 
permits us to continue to invest the multibillions of dollars 
in new aircraft, new avionics for use in the next generation 
air traffic control system, which I hope will be the now 
generation, not next generation, ATC, and development of fuels, 
et cetera. So it is a very expensive proposition.
    Mr. Windmuller. I agree entirely with that. If I can put a 
slightly different spin on it, over the last 3 years, the 
airline community has ordered 6,000 new airplanes. Today there 
are about 19,000 commercial aircraft in operation, so about 30 
percent of that 19,000 has been ordered new in the last 3 
years. The production lines for some of these new models such 
as the A380, the Boeing 787 are sold out for the next several 
years.
    As Jim said, our members have every incentive they need to 
be as fuel efficient as they possibly can be.
    Mr. Cleaver. Let me just say, Mr. Chairman, before I 
relinquish my time, it is refreshing to have you here before 
this committee. I went home somewhat depressed yesterday after 
having the oil executives here. They also talked about green 
but they talked about greening their pockets. So it is 
infinitely more refreshing to have you.
    Thank you, Mr. Chairman, I yield back the balance of my 
time.
    Mr. May. Mr. Chairman, may I comment on that last 
statement?
    The Chairman. Yes, please.
    Mr. May. I would note that Lieberman-Warner will cost this 
industry somewhere between $85 and $100 billion between now and 
2025 because we would be of necessity forced to buy permits for 
our activities. The money goes, interestingly, to the oil 
companies under the current construct of that legislation. So I 
think it is somewhat ironic that we have got this hearing 
juxtaposed with the one you held yesterday.
    The Chairman. I will talk to our committee about that. 
Thank you.
    The gentlelady from South Dakota, Ms. Herseth Sandlin.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman, and thank you 
to the witnesses and the very insightful written statements you 
have submitted and for your testimony today. I must say, Mr. 
May, you have made some very commendable recent hiring 
decisions.
    Mr. May. Thank you so much, and I apologize for that.
    Ms. Herseth Sandlin. Mr. Cleaver pursued some of the area I 
wanted to go in the direction of jet biofuels.
    But given how you described the investments that you want 
to make in the upcoming years and in addition to what you have 
already made, and I appreciate the comment you just made as to 
the economic impact of Lieberman-Warner and being in agreement 
on the out goals and what we can do between now and then 
economically within different sectors of the economy, but it is 
an expensive proposition, so are you aware of any support, 
financial or otherwise, that foreign governments or agencies 
are providing to non-U.S. airlines or to U.S. airlines with the 
goal of developing alternative jet fuels, including biofuels?
    Mr. May. Tom, you may have an answer to that. I am not 
aware of foreign governments that are engaged in it, but you 
may.
    Mr. Windmuller. The European Union has committed 
approximately 1 billion Euros to this type of research. But, 
frankly speaking, that amount of money is a drop in the ocean 
of what will be needed to accelerate the implementation of 
third generation biofuels that can actually have a real impact 
on the carbon footprint of this industry.
    Ms. Herseth Sandlin. Which may go to the issue of the Air 
Force looking at some of the synthetic fuels that are more 
cost-effective right now. I have spoken with General Mosely 
about this, Mr. Lovaas, and we know there have been test 
flights using synthetic fuels or coal-to-liquid.
    I would agree we want a net positive impact, and from an 
environmental perspective, my sense is the DOD is pursuing this 
because while you cited some percentages, for the DOD their 
largest line item in the Air Force budget is their fuel, from 
what I have been told, as it relates to their operating costs.
    So I think we need to address this, sort of what are the 
short-term strategies for certain agencies versus the mid-range 
and the long term which was actually one of the reasonable 
things that we heard yesterday in yesterday's hearings in terms 
of the strategies that we have to pursue.
    But I would just make note as a response to saying that the 
investment so far has been so minimal that we have to look at, 
again, mid-range and broad range, long range what we are going 
to be able to accomplish in making government investment in 
addition to what the private sector is doing.
    The Chairman. Thank you. I think there are about 3 minutes 
left to go with the roll calls on the House floor.
    I do have a number of questions for the panel that I am 
going to submit to you in writing. I would ask for your timely 
written response to these questions, but as a logistical 
reality right now, we will be out of session here for about 
half an hour anyway.
    I just think probably out of courtesy to all of you rather 
than waiting through the afternoon it probably be better if we 
adjourned the hearing at this point in time. So with thanks of 
the committee, this hearing is adjourned.
    [Whereupon, at 3:15 p.m., the committee was adjourned.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
